Department of Homeland Security
   Ofﬁce of Inspector General

    FEMA's Acquisition of Two Warehouses to 

           Support Hurricane Katrina 

             Response Operations





OIG-09-77                               June 2009
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                            June 5, 2009


                                             Preface

The Department of Homeland Security, Office of Inspector General, was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act of
1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report addresses the Federal Emergency Management Agency’s acquisition of two
storage/maintenance buildings by the Emergency Housing Unit Program. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and analyses
of applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We trust this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                           Richard L. Skinner 

                                           Inspector General

Table of Contents/Abbreviations 


  Executive Summary ........................................................................................... 1


  Background ......................................................................................................................................3 


  Results of Review ............................................................................................. 7 


  Conclusions and Recommendations ...................................................................... 12


  Management Comments and OIG Analysis ............................................................. 13


  Appendices
       Appendix A:          Purpose, Scope, and Methodology....................................................................14 

       Appendix B:          Management Response to the Draft Report ......................................................15 

       Appendix C:          Major Contributors to This Report....................................................................18 

       Appendix D:          Report Distribution............................................................................................19 


  Abbreviations
       ADA                  Anti-deficiency Act    

       DHS                  Department of Homeland Security 

       EHU                  Emergency Housing Unit        

       FAR                  Federal Acquisition Regulation 

       FEMA                 Federal Emergency Management Agency 

       GSA                  General Services Administration 

       HSAM                 Homeland Security Acquisition Manual 

       OIG                  Office of Inspector General 

       OLC                  Office of Legal Counsel (Department of Justice) 

       OMB                  Office of Management and Budget 

       Stafford Act         Robert T. Stafford Disaster Relief and Emergency Assistance Act 

       U.S.C.               United States Code
OIG

Department of Homeland Security
Office of Inspector General

  Executive Summary
                In the summer of 2006, the Federal Emergency Management Agency (FEMA)
                contracted to have two large warehouse-type structures built on leased
                properties in Selma, Alabama and Cumberland, Maryland. FEMA had no
                authority to construct these buildings and, therefore, violated federal laws, as
                described in this report. Contrary to procedures, FEMA spent disaster relief
                funds to pay for one building, and spent restricted-use sales proceeds to erect
                the other. The cost of the two buildings exceeded $7 million. Following an
                internal inquiry, FEMA attempted to take corrective steps in 2007 to use
                appropriate funding sources.

                The predecessor program office of FEMA’s Logistics Management
                Directorate took steps to acquire the buildings, apparently without notifying
                the Office of the Administrator, which has gone on record stating that senior
                agency leadership disallowed both project proposals. Documents indicate that
                the program office nevertheless moved forward with the projects and certified
                funding availability. Some senior FEMA managers were briefed on the
                proposed projects before construction began, and the Office of Acquisitions
                managed the contracts. By early 2007, FEMA imposed a stop-work order for
                a month while an internal review of the procedures that had been followed
                was conducted. Construction eventually resumed, and the projects were
                completed in 2007.

                We conducted this review at the request of FEMA senior management, who
                asked us to examine several issues involving the Logistics Management
                Directorate and its Emergency Housing Unit program. This report is the
                second phase of our review. An earlier OIG report, Review of FEMA’s use of
                Proceeds from the Sales of Emergency Housing Units, OIG-08-23, dated
                February 23, 2008, addressed the agency’s use of proceeds from the sales of
                emergency housing units.

                We are making six recommendations to the Administrator, Federal
                Emergency Management Agency. FEMA needs to: (1) determine whether




                       FEMA’s Acquisition of Two Warehouses to Support

                          Hurricane Katrina Response Operations 


                                           Page 1 

the acquisition of the two warehouses constituted a legal violation that
requires reporting to Congress, in accordance with the law; (2) develop and
implement a more robust management review process for major purchases;
(3) return sale proceeds funds to the U.S. Treasury, as required by law;
(4) develop and implement agency policy and standard operating procedures
for the preparation, review, and approval of major purchases; (5) determine
the appropriate disposition of the two subject buildings; and, (6) record the
two buildings in agency financial reports.




       FEMA’s Acquisition of Two Warehouses to Support

          Hurricane Katrina Response Operations 


                           Page 2

Background

             Following the 2004 and 2005 hurricane seasons, the Federal Emergency
             Management Agency (FEMA) established a dozen emergency housing unit
             (EHU) storage sites in seven states to accommodate the thousands of travel
             trailers and mobile homes that had been purchased to shelter displaced
             disaster victims. Once the hurricane victims vacated temporary housing,
             FEMA moved the used trailers and mobile homes to the EHU sites for
             cleaning, repair, and refurbishing. To support the repair and refurbishment
             effort, FEMA managers proposed erecting maintenance buildings at two of
             the sites. Initially, large tents were considered, but by April 2006, the
             decision was made to erect prefabricated buildings in lieu of the tents.

             Of the dozen EHU locations, FEMA managers selected Selma, Alabama and
             Cumberland, Maryland as sites for the buildings. Those sites were on leased
             land, not owned by the government, where FEMA chose to construct “Butler-
             type buildings,” which consist of a concrete foundation and a rigid girder
             frame covered with steel panels that are prefabricated in a factory and
             assembled on site to the customer’s specifications.

             Although some FEMA officials have said that senior agency leadership
             initially disallowed both project proposals, eventually the projects were
             approved and funded. Senior FEMA managers were briefed on the projects
             before construction began, and the Office of Acquisitions managed the
             contracts, which were awarded in August and September 2006.

             Laws and Regulations

             During Presidentially declared disasters that involve widespread dislocation,
             Section 408 of the Robert T. Stafford Disaster Relief and Emergency
             Assistance Act (Stafford Act, 42 U.S.C. § 5121 et seq.) authorizes FEMA to
             use disaster relief funds to provide temporary housing units to shelter disaster
             victims. The Stafford Act does not specifically authorize construction of such
             buildings by FEMA. Authority to construct buildings and to improve leased
             land is specifically granted to the General Services Administration (GSA), in
             40 U.S.C. § 581 and § 583. Agencies need specific statutory authority (41
             U.S.C. § 12) to construct buildings or to construct them on leased property;
             however, FEMA did not have this authority.



                    FEMA’s Acquisition of Two Warehouses to Support

                       Hurricane Katrina Response Operations 


                                        Page 3

Federal statute (31 U.S.C. § 1301(a)) requires that “Appropriations shall be
applied only to the objects for which the appropriations were made except as
otherwise provided by law.” Charging authorized items to the wrong federal
funds source or charging unauthorized items to any federal funds source is
therefore prohibited. The Anti-deficiency Act (31 U.S.C. § 1341) prohibits
agencies from using appropriated funds in excess of fund availability or in
violation of a statute.

The Federal Acquisition Regulation (FAR), Title 48 of the Code of Federal
Regulations, establishes government-wide acquisition policies and procedures.
The Homeland Security Acquisition Manual (HSAM), which establishes
policies and procedures that govern acquisitions, contains no specific
guidance on the preparation, review, and approval process of purchase
requisitions. Nevertheless, prudent business principles dictate that FEMA
management has a fundamental responsibility to develop and maintain
effective internal controls on major purchases, as set forth in the Office of
Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Controls, dated December 21, 2004.

The Buildings

The Selma building is a 150’ x 300’ (45,000 sq. feet) free-span (unobstructed
interior) structure, which was originally justified as urgently required for
storage of emergency group site supplies. As delivered, the “turn-key”
(ready-to-use) building included site preparation, concrete foundation, and
was outfitted with electricity, lighting, plumbing, heat, air conditioning, fire
sprinklers, and security systems. The building includes workspace and
storage areas, as well as offices, restrooms, showers, and an employees’
lunchroom. The final cost of the building was $3,744,180.

The Cumberland building was unfinished as delivered. It is a 145’ x 400’
(58,000 sq. feet) free-span structure, with the stated mission of providing
under-roof capabilities to allow for storage and repair operations. It also was
initially described as a “turn-key” project, but it is not ready to use. As
delivered, the building was not mission-capable, did not have electricity,
lighting, and other utilities and it could not be used for repair operations.
FEMA’s statement of work, on which the contract was negotiated, did not
include provisions for utilities. This incomplete building is what FEMA
contracted for. Final cost for the Cumberland building was $3,536,819.


       FEMA’s Acquisition of Two Warehouses to Support

          Hurricane Katrina Response Operations 


                           Page 4

                            Prefabricated Buildings
    Location                   Size (Sq. Ft.)                  Cost
 Selma                             45,000                     $3,744,180
 Cumberland                       58,000                      $3,536,819
 Total                            103,000                     $7,280,999

According to the project officer, FEMA planned to install the building’s
utilities using in-house staff, instead of paying the contractor to perform those
tasks. Consequently, those building subsystems were intentionally not
included in the project’s statement of work. Although the Cumberland
building did not have electrical or other utilities at the time of our fieldwork,
FEMA has informed us that they since arranged to have electrical, lighting,
heating, and fire sprinkler systems installed.

Photographs of the two buildings (at the time of our review) FEMA purchased
are shown below.




               Exterior Cumberland Prefabricated Building


       FEMA’s Acquisition of Two Warehouses to Support
          Hurricane Katrina Response Operations

                           Page 5
         Interior Cumberland Prefabricated Building




             Exterior Selma Prefabricated Building




FEMA’s Acquisition of Two Warehouses to Support

   Hurricane Katrina Response Operations 


                    Page 6

                                   Interior Selma Prefabricated Building

Results of Review
            FEMA had no authority to use appropriated funds to construct the two
            buildings and, therefore, violated the “Purpose Statute,” 31 U.S.C. § 1301(a);
            the law against entering into contracts in excess of available appropriations,
            41 U.S.C. § 12. The prerogative to construct the buildings and improve leased
            land belongs to GSA under 40 U.S.C. § 581 and § 583, but FEMA failed to
            obtain GSA’s permission for the warehouses.

            Acquisition regulations were not followed, the justifications were ambiguous
            and misleading, and furthermore, the accounting codes used did not clearly
            match the expenditures. Building deficiencies were noted by a FEMA civil
            engineer, and one of the “completed” buildings was delivered without
            lighting, electricity, or any other utilities. Both contracts were awarded
            approximately 1 year after Hurricane Katrina struck; consequently, there was
            no urgent or compelling reason to relax established policies or regulations.




                    FEMA’s Acquisition of Two Warehouses to Support

                       Hurricane Katrina Response Operations 


                                        Page 7

Purchase Requisitions

The purchase requisition (FEMA Form 40-1) that was used to commit disaster
relief funds for the Selma building was created and approved in late 2005,
months before the decision was made in 2006 to acquire the building. The
stated purpose on the requisition form was to commit funds for “electrical
component support items...” for emergency group shelters in Purvis,
Mississippi, using funds from the Hurricane Katrina disaster declaration in
Louisiana. At some point, the decision was made to use this funding and
requisite justification to construct the building in Selma. Senior management
did not question the inconsistency between the purpose for which the funds
were originally committed and the project’s objectives and location.

                           Selma Building Timeline
 November 21, 2005       Purchase Requisition for “Electrical components”
 August 31, 2006         Contract for Selma building, citing above requisition
 October 2006            Project begins
 December 12, 2007       Selma building accepted by FEMA

According to the purchase requisitions used to commit funds for the building
in Cumberland, the purpose was a “tent erection project.” In this case, a large
tent had been initially proposed for the Cumberland site, but FEMA project
managers later decided to contract for a building instead, because of earlier
troubles experienced with storage tents at the Cumberland site. Previously,
large storage tents at that location collapsed in the high winds that are not
uncommon in that area. By April 2006, the project managers decided to have
a building erected instead of a tent. But, despite that decision, the requisitions
were never modified to reflect the change, and two subsequent requisitions for
additional construction funds continued to list the justification as a tent. It
was still described as a “large tent” as late as June 2006, 2 months after the
project managers decided to erect a building.

Similar to the building in Selma, documents authorizing this project used
erroneous accounting information. FEMA used restricted-use funds, received
from the sale of used travel trailers and mobile homes, to finance the erection
of the Cumberland building. These funds can only be used to acquire property
similar to that sold, i.e., travel trailers and mobile homes. This topic is
discussed in detail in our report, OIG-08-23, Review of FEMA’s Use of
Proceeds from the Sales of Emergency Housing Units, dated February 2008,
which focused on the use of sales proceeds to purchase goods and services

       FEMA’s Acquisition of Two Warehouses to Support

          Hurricane Katrina Response Operations 


                           Page 8

other than buildings. Sales proceeds that are not used for such purposes must
be returned to the U.S. Treasury.

                    Cumberland Building Timeline
  March – June 2006  Four purchase requisitions for “Tent erection
                     project”
  September 13, 2006 Contract for building citing above requisitions
  October 2006       Project begins
  August 9, 2007     Cumberland building accepted by FEMA

As with the building in Selma, FEMA attempted to take corrective steps in
2007 to use appropriate funding sources for the Cumberland building.

Sound internal controls require adequate separation of duties. In this case, the
individual that certified funds availability for the project also approved the
project. All of the signatories on the requisition form were in the program
office chain of command and reporting to the same individual. Such internal
control weaknesses violate the principles set forth in OMB Circular A-123,
Management’s Responsibility for Internal Controls.

Use of Funds

As indicated above, FEMA used disaster-specific funds, intended to provide
relief to Hurricane Katrina’s victims in Louisiana, to fund the building in
Selma. The building project in Cumberland used funds that should only have
been used to acquire replacement emergency housing units. Although FEMA
eventually attempted to correct the errors by charging different accounting
codes, additional controls are needed to prevent the situation in future events.

Under 31 U.S.C. § 1301(a), FEMA may only spend appropriated funds for the
purposes delineated in the appropriations statute. The Comptroller General
has long held that an agency violates 41 U.S.C. § 12 by constructing buildings
or constructing them on leased property without special authority, but FEMA
did not have this authority. Therefore, FEMA violated 31 U.S.C. § 1301 and
41 U.S.C. § 12. Because none of the appropriations used were available for
the warehouses, FEMA may have also violated the Anti-deficiency Act, 31
U.S.C. § 1341.




       FEMA’s Acquisition of Two Warehouses to Support

          Hurricane Katrina Response Operations 


                           Page 9

Contracts

Both projects were planned in mid-2006, and the contracts were awarded
within a few weeks of each other, in August and September of that year.
However, the contractual approaches on the two projects were quite different.

FEMA acquired the Selma building through the GSA Schedule, which is an
arrangement whereby GSA has thousands of pre-established, unfunded
contracts with various vendors, from which any federal agency may directly
order goods and services, including prefabricated buildings. This approach
allows an agency to streamline the procurement process because GSA already
has performed the required planning, market research, competition, contractor
review, and negotiation. In the case of the Selma building, the contracting
officer selected from the GSA Schedule a vendor that specialized in
prefabricated structures, and is a subsidiary of the building manufacturer. The
contract was awarded on August 31, 2006, and included constructing the
concrete slab and erection of the prefabricated building with appropriate
utilities at a cost of $3,744,180.

Instead of using the GSA Schedule for the building in Cumberland, FEMA
chose a small disadvantaged business (8a) that was recommended to the
program office by a FEMA contractor who had hoped to become the
subcontractor on the project. FEMA recommended the 8a contractor to the
Small Business Administration, which certified that the firm qualified under
the provisions of Section 8(a) of the Small Business Act (Public Law 85-536,
as amended), which is a business development program created to help small
disadvantaged businesses compete in the market place. FEMA “split” the
procurement into two contracts in order to avoid competition that FAR section
19.805-1(a)(2) specifically requires on 8a contracts in excess of $3,500,000.
FEMA issued one contract for $789,673 to prepare the pre-existing concrete
slab and a second contract for $2,806,615 to erect the prefabricated Butler
building. Both contracts were awarded to the same vendor on September 13,
2006. Separately, each contract was below the $3,500,000 threshold, thus
FEMA avoided competition on the project.

The 8a contractor had no experience in constructing buildings, but proceeded
with a non-8a subcontractor which performed most of the work. This violated
the 8a program regulations, 19.703(a). Some of the contractual problems
could have been avoided had FEMA submitted the Cumberland contract for


       FEMA’s Acquisition of Two Warehouses to Support

          Hurricane Katrina Response Operations 


                           Page 10

legal review, as required by HSAM (Subchapter 3004.7003). However, the
contracting office waived the requirement for legal review.

Stop-Work Orders

In January 2007, after senior officials became aware of some of the projects’
problems, the Logistics Management Directorate conducted an internal
inquiry into events surrounding the acquisition of the two buildings, and re-
assigned staff in the EHU section who had been involved with the projects. In
connection with that inquiry, FEMA issued a series of stop-work orders on
both the Selma and the Cumberland projects.

The contractors at both locations were ordered to suspend work from
January 29 through February 27, 2007, a total of 30 calendar days, or 22
workdays. However, the suspension was ordered in four weekly installments
as the inquiry progressed, so the contractors did not re-assign their staff to
other projects, but continued to pay their people so they would be available to
resume work on the FEMA projects. Furthermore, because the suspensions
were each only for a week, the contractors at both locations kept heavy
equipment, such as tractors, cranes, and other machinery on site, rather than
returning the rental units, so they would be on hand to continue the project
when the stop-work order was lifted. The table below shows the cost for the
buildings, the stop-work orders, and the total cost for both projects.

                         Cost – Building         Cost - Stop-      Total Cost
                                                 Work Order
 Selma                         $3,744,180             $151,142       $3,895,322
 Cumberland                    $3,536,819               $351,957     $3,888,776
 Total                         $7,280,999               $503,099     $7,784,098


As provided by FAR sections 42.1303 and 52.242-15(b), contractors are
entitled to equitable adjustment for expenses incurred during a stop-work
order. Consequently, interim contractor claims against FEMA for incurred
costs during the stop-work period for both projects amounted to more than
$500,000.




         FEMA’s Acquisition of Two Warehouses to Support

            Hurricane Katrina Response Operations 


                             Page 11

    Conclusions and Recommendations
                           FEMA had no authority to use appropriated funds to construct the two
                           buildings and therefore violated the “purpose” statute (31 U.S.C. § 1301(a));
                           the law against entering into contracts in excess of available appropriations
                           (41 U.S.C. § 12). The prerogative to construct the buildings and improve
                           leased land belongs to GSA under 40 U.S.C. § 581 and § 583, but FEMA
                           failed to obtain GSA’s permission for the warehouses.

                           FEMA needs to establish and enforce a system of controls over construction,
                           leasing, and building activities. Absent these controls, multi-million dollar
                           construction projects moved forward with vague or misleading purchase
                           requisitions. Furthermore, FEMA needs to strengthen oversight on the
                           program office’s use of funding codes and appropriation expenditures.

                           Additionally, FEMA officials need to take action to avoid such situations in
                           the future by introducing more discipline in the acquisition process. Steps are
                           needed to prevent the misuse of disaster-specific and restricted-use funds, and
                           policies and standard operating procedures are needed governing the
                           preparation and approval of major purchases. Furthermore, FEMA needs to
                           record the cost of the two buildings and associated depreciation in their
                           financial reports.
                           We recommend that the Administrator, Federal Emergency Management
                           Agency:

                           Recommendation #1: Determine whether the acquisition of the two
                           warehouses constituted a legal violation that requires reporting to Congress, in
                           accordance with the law1.




1
  The Department of Justice, Office of Legal Counsel (OLC) recently found that the Anti-deficiency Act’s (ADA)
prohibition on excess expenditures only applies when the restriction is found in the appropriation itself, not in a separate
statute. 31 Op. O.L.C. 1 (2007). Under this analysis, FEMA's acquisition of the two warehouses would not constitute an
ADA violation because the spending restriction is not contained in an appropriation. OLC’s decision appears to negate
Comptroller General precedent of at least 50 years. See, e.g., 39 Comp. Gen 388 (1959) (violation of 41 U.S.C. § 12
also constitutes ADA violation). The Comptroller General vigorously disputes the OLC holding. See B-317450 (March
23, 2009) (responding to request from Senators Byrd and Cochran). OLC decisions are legally binding on the executive
branch while Comptroller General decisions are not, though the latter ordinarily are accepted as authoritative. FEMA
should analyze the potential ADA violation in light of these decisions.


                                    FEMA’s Acquisition of Two Warehouses to Support

                                       Hurricane Katrina Response Operations 


                                                          Page 12

        Recommendation #2: Develop and implement a management review
        process, including policy and standard operating procedures for the
        preparation, review, and approval of major purchases that will incorporate
        adequate separation of duties and approvals.

        Recommendation #3: Return the exchange/sale authority funds that were
        initially used for the Cumberland pre-fabricated building to the U.S. Treasury,
        as required by law.

        Recommendation #4: Develop and implement procedures to ensure that
        disaster-specific fund and restricted-use fund guidelines are followed.

        Recommendation #5: In consultation with GSA, determine an appropriate
        disposition of the buildings, and whether and how they may be used to support
        the FEMA mission.

        Recommendation #6: Record the two buildings in agency financial reports
        and include associated depreciation.

Management Comments and OIG Analysis

        We discussed the results of our findings with FEMA officials on May 6, 2008,
        and provided an initial draft of this report on August 14, 2008, for review and
        comment. Due to scheduling conflicts and the challenges presented by an
        active 2008 hurricane season, FEMA officials did not formally respond to the
        draft report within 30 days. Subsequent to our meeting with FEMA on the
        draft report, we had discussions with OIG Office of Counsel and incorporated
        changes that resulted in a revised draft report.

        On November 17, 2008, we again met with agency officials to discuss our
        determination that FEMA violated 31 U.S.C. § 1301, 41 U.S.C.§ 12, and may
        have violated 31 U.S.C. § 1341, and ignored 40 U.S.C. § 581 and § 583 when
        it constructed the pre-fabricated buildings on leased land, using appropriated
        funds. As indicated in management’s response to our revised draft report (see
        Appendix B), FEMA concurs with our recommendations. Proposed
        corrective actions address our concerns and will satisfy the intent of our
        recommendations when implemented.




               FEMA’s Acquisition of Two Warehouses to Support

                  Hurricane Katrina Response Operations 


                                   Page 13

Appendix A
Purpose, Scope and Methodology


                  We conducted this review in response to a request from the FEMA Deputy
                  Administrator. Our objectives were to examine the events surrounding the
                  acquisition of large, prefabricated warehouse buildings at FEMA logistics
                  sites in Selma, Alabama and Cumberland, Maryland, and to evaluate the
                  agency’s EHU’s acquisition practices at headquarters, and at field locations.
                  Our review covered all transactions associated with the warehouse
                  acquisitions during the period March 2006 to July 2007.

                  Audit fieldwork was conducted in the Washington, DC area, where we
                  interviewed responsible officials from pertinent FEMA offices including the
                  Logistics Management Directorate, the Office of Chief Counsel, and the
                  Office of Facilities Management. We also spoke with GSA officials regarding
                  the applicable regulations on prefabricated buildings. We visited the building
                  sites in Selma, Alabama and Cumberland, Maryland. In addition, we
                  reviewed contract files and interviewed staff at the FEMA Acquisition
                  Management Offices in Emmitsburg, Maryland, and Montgomery and
                  Anniston, Alabama. As part of our review, we performed a limited
                  assessment of the effectiveness of FEMA management controls.

                  We conducted our review from September 2007 through February 2008,
                  under the authority of the Inspector General Act of 1978, as amended, and
                  according to generally accepted government auditing standards for
                  performance audits.




                         FEMA’s Acquisition of Two Warehouses to Support

                            Hurricane Katrina Response Operations 


                                             Page 14

Appendix B
Management Comments to the Draft Report




                       FEMA’s Acquisition of Two Warehouses to Support

                          Hurricane Katrina Response Operations 


                                           Page 15

Appendix B
Management Comments to the Draft Report




                       FEMA’s Acquisition of Two Warehouses to Support

                          Hurricane Katrina Response Operations 


                                           Page 16

Appendix B
Management Comments to the Draft Report




                       FEMA’s Acquisition of Two Warehouses to Support

                          Hurricane Katrina Response Operations 


                                           Page 17

Appendix C
Major Contributors to This Report

                   Gina Smith, Director
                   John Meenan, Senior Program Analyst
                   Donald Norman, Senior Program Analyst
                   Kristofer Hensley, Program Analyst




                          FEMA’s Acquisition of Two Warehouses to Support

                             Hurricane Katrina Response Operations 


                                              Page 18

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff of Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Chief Financial Officer
                      FEMA OIG Liaison (Project Code DP7R12)
                      FEMA Assistant Administrator, Logistics Management Directorate
                      FEMA Director, Office of Management/Chief Acquisition Officer
                      FEMA Chief Financial Officer
                      FEMA Office of Chief Counsel

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                            FEMA’s Acquisition of Two Warehouses to Support

                               Hurricane Katrina Response Operations 


                                                Page 19

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
